Audit of Administrative Law Judge Procedures, Report No. OIG-AMR-24
Audit of Administrative Law Judge Procedures Report No. OIG-AMR-24
Results
of Audit
Objectives, Scope, and Methodology
Background
RESULTS OF AUDIT
This audit evaluated procedures adopted
by the Division of Judges to expedite the resolution of unfair labor
practice cases. First, a settlement judge process was implemented to
affect settlements prior to formal hearings. Second, judges were granted
the authority to ask for oral argument in lieu of briefs and issue bench
decisions at the close of hearings. Third, time targets were established
for the issuance of Administrative Law Judges decisions. Our review
assessed whether the intended results were being achieved. We also
determined if the information system used by the Division of Judges
accurately reported the judges performance. The scope of our audit
was Fiscal Years 1996 and 1997.
The Division of Judges has successfully
implemented the aforementioned procedures. The judges were achieving a
higher number of settlements thus avoiding the costs and the delay
required by a formal hearing. One key performance indicator related to
the number of elapsed days between the date a judge received the case
briefs and the date the judge issued a decision. The median number of
days, from receipt of briefs to issuance of decisions, has been reduced
each of the last several years. Our review also determined that the data
relating to the Division of Judges performance was reliable.
Settlement Judges.During Fiscal Years 1996 and 1997, 190 cases
were assigned to settlement judges. The Division of Judges achieved
settlements for 68 percent (129 of 190) of these cases. The success rate
of the settlement judges is noteworthy considering these cases were
about to be formally litigated. We noted that cumulative settlements
obtained by the Division of Judges increased substantially since the
adoption of the settlement judge process. Total settlements by judges
increased 21 percent in Fiscal Year 1996 and 19 percent in Fiscal Year
1997 when compared to the period settlement judges were not utilized.
The Chief Administrative Law Judge, his
Deputy, or one of the Associate Chiefs may appoint a settlement judge.
The assigning judge considers factors such as: whether one of the case
participants requested a settlement judge; the effect of an assignment
on Agency resources; and the number of days that the trial is expected
to last. Cases expected to include lengthy trials, defined as three to
five days, receive strong consideration when settlement judges are
assigned. As previously stated, the Division of Judges achieved 129
settlements during Fiscal Years 1996 and 1997. We noted that 27 percent
(35 of 129) of these settlements related to cases handled by the General
Counsels office in Philadelphia (Region 4). The Division of Judges
settled 65 percent (35 of 54) of the cases from Region 4 as compared to
the settlement judges nationwide average of 68 percent. Philadelphias
participation in the settlement judge process was proactive in nature.
Each month Region 4 identified several cases for referral to a
settlement judge. The Region then notified the parties involved in each
case that the Division of Judges had been requested to assign a judge to
conduct a settlement conference regarding their case. The Region stated
a specific date on which the conference would be held and requested the
parties to notify the Agency whether or not they wished to participate
in such a conference. The Region stated that participation in the
settlement conference is voluntary and that no conference would be held
unless all parties agreed to participate. The Region also informed the
parties that the settlement judge would not be the judge assigned to
hear the case if it goes to trial; and, that settlement discussions
would not be admissible in proceedings before the Board except by
stipulation of the parties.
The practices utilized by Region 4, in
regards to the settlement judge process, may be useful to other Regional
Offices. The Office of Inspector General will bring this matter to the
attention of the acting General Counsel.
Bench Decisions.During Fiscal Years 1996 and 1997, the Division
of Judges issued 48 bench decisions. These cases represented about 5
percent of the total decisions issued by the judges during this period.
Judges may render bench decisions after the conclusion of oral
arguments. As a result, bench decisions were issued earlier than cases
in which judges reviewed the briefs before issuing a decision. In Fiscal
Year 1997, the median time from the close of hearing to the submission
of the judges decision was 107 days. For bench decisions, the median
time was 23 days.
Judges were given the discretion to
decide whether briefs are needed in a case before rendering their
decision. The Agency recognized that bench decisions are not suitable
for many cases. In more complex cases, including cases with lengthy
records, utilizing bench decisions may create situations which the
reviewing courts might remand a case for more thoughtful consideration.
The Board provided guidance as to when
it may be appropriate to issue bench decisions. In part, these
guidelines focused on cases involving a well-settled issue where there
is no dispute as to the facts and short record single-issue cases. As
previously stated, 48 bench decisions were issued by the Division of
Judges. Twenty-nine of these decisions were appealed to the Board of
which 15 were affirmed. The Board reversed one decision, remanded two,
and 11 were pending. Four bench decisions were appealed to the Court of
Appeals. Three of these were pending and the court affirmed the
remaining decision.
Time Targets.In May 1995 the Board implemented the following
time targets for the issuance of judges decisions.
For cases with transcripts of 500
pages or less, the time target is 60 days after receipt of briefs.
For cases with transcripts of between
501 and 1000 pages, the time target is 90 days after receipt of
briefs.
For cases with transcripts of over
1000 pages, the time target is negotiated between one of the chiefs
and the judge.
In Fiscal Year 1997, the Division of
Judges reported that they met their time target 61 percent of the time
when case transcripts were less than 500 pages. The average number of
transcript pages that year was 553 but most cases involved transcripts
of less than 500 pages. The judges met their time target 44 percent of
the time when case transcripts were between 501 and 1000 pages. We
generated a statistically valid random sample of 40 cases and determined
how many cases were meeting the time targets. The statistical
methodologies used allow us to draw conclusions regarding all cases in
Fiscal Year 1996 and 1997. Our testing determined that 62 percent (25 of
40) of the cases met the established time target.
We noted that the median number of days,
from the receipt of briefs to the issuance of decisions, has been
decreasing. In Fiscal Year 1995, the median number of days was 64; in
1996 it was 62; and, in 1997 the median number of days had been reduced
to 60. The OIG believes this measurement indicates steady progress
towards the Boards goal of facilitating the expeditious resolution of
unfair labor practice proceedings.
The time target for cases with 501 to
1000 pages was met 44 percent of the time during Fiscal Year 1997. The
Chief Administrative Law Judge has proposed increasing the time target
for these cases. Based on the data, an increase in the time target for
the 501 to 1000 page cases may be a more realistic goal for the Division
of Judges. The Division of Judges will have performance data for Fiscal
Year 1998 very soon. This information should prove very useful in
deciding whether to increase the time target.
Information System. We assessed the collection and processing of
data that was used to report on the performance of the Division of
Judges. This data related to settlement judges, bench decisions, time
targets and other procedures. The data was accurate and the reports on
the judges performance were reliable.
Management had no formal comments.
OBJECTIVES, SCOPE AND METHODOLOGY
This audit evaluated procedures adopted
by the Division of Judges to expedite the resolution of unfair practice
labor practice cases. Our review assessed whether the intended results
were being achieved. We also determined if the information system used
by the Division of Judges accurately reported the judges performance.
Our audit scope was Fiscal Years 1996
and 1997. The Division of Judges issued 925 decisions and settled 1,436
cases during those years.
The OIG ascertained policies applicable
to the Division of Judges by reviewing pertinent sections of the Agencys
Rules and Regulations and Statement of Procedures. We also interviewed
officials from the Division of Judges, selected regional offices, and
the Division of Administration. These officials explained and clarified
Agency procedures. We reviewed reports on the Judges performance and
examined source documentation that supported these reports. We generated
a statistically valid random sample of 40 cases for review and
determined the accuracy of performance data. The statistical
methodologies used allow us to draw conclusions regarding all cases in
Fiscal Years 1996 and 1997.
This audit was performed in accordance
with generally accepted Government auditing standards at the Agencys
Headquarters Office from January through September 1998.
BACKGROUND
The Agency administers the principal
labor relations law of the United States, the National Labor Relations
Act of 1935, as amended, which is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal
Service, but excluding other governmental entities as well as the
railroads and the airline industries. The National Labor Relations Board
(NLRB) performs its mission by: (1) conducting secret ballot elections
to determine if a group of employees wishes to be represented, for
collective bargaining purposes, by a labor organization; (2)
adjudicating representation issues if the parties cannot reach
agreement; (3) investigating charges of unfair labor practices filed by
the public with the Agency; (4) prosecuting, if the parties cannot
settle and reach an agreement, those cases of unfair labor practices
which the Agency determined to have merit; and (5) adjudicating those
unfair labor practice cases which the Agency litigates.
In a sense, NLRB is two entities within
one Agency. The General Counsel investigates unfair labor practices and
litigates before the Board. The Board is judicial in nature and includes
Administrative Law Judges, whose decisions may be appealed by any of the
parties, including the General Counsel, to the five member Board
appointed by the President. Board decisions may be appealed, other than
by the General Counsel, to the US Courts of Appeals and the Supreme
Court. By delegation from the Board, the General Counsel of the Agency
represents the NLRB in those cases and in matters before Bankruptcy and
District Courts. The Regional Offices coordinate secret ballot elections
under the supervision of the Board. The NLRB responds to matters brought
before it and does not initiate cases on its own. In Fiscal Year 1998,
the Agency employed about 1880 people and had an appropriation of
$174,661,000.